APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order in the United States Court of
Appeals for the Sixth Circuit
(March 28, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Judgment Order in the United States
District Court Northern District of
Ohio, Eastern Division
(November 27, 2018) . . . . . . . . . . . App. 4
Appendix C Memorandum Opinion and Order in
the United States District Court
Northern District of Ohio, Eastern
Division
(November 19, 2018) . . . . . . . . . . . App. 6
Appendix D Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Sixth Circuit
(May 21, 2019) . . . . . . . . . . . . . . App. 18
Appendix E Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Sixth Circuit
(June 6, 2019) . . . . . . . . . . . . . . . App. 20

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 19-3041
[Filed March 28, 2019]
________________________________
HAROLD PERSAUD,
)
)
Petitioner-Appellant,
)
)
v.
)
)
UNITED STATES OF AMERICA, )
)
Respondent-Appellee.
)
________________________________ )
ORDER
Harold Persaud, a federal prisoner, moves through
counsel for a certificate of appealability to appeal a
district court judgment denying his motion to vacate
his sentence, filed pursuant to 28 U.S.C. § 2255.
In 2015, a jury convicted Persaud of health care
fraud, thirteen counts of making false statements, and
money laundering. He was sentenced to twenty years
of imprisonment and $5,486,857.03 in restitution. This
Court affirmed his conviction on direct appeal, rejecting
his claim of insufficient evidence. United States v.
Persaud, 866 F.3d 371 (6th Cir. 2017).

App. 2
In this motion to vacate, Persaud claimed that trial
and appellate counsel were ineffective for failing to
object to the qualification and testimony of
prosecution’s expert and lay witnesses at trial, and for
failing to object to the amount of loss calculation at
sentencing. The district court denied the motion on the
merits and denied a certificate of appealability.
In order to receive a certificate of appealability,
Persaud must demonstrate that reasonable jurists
could debate whether the motion should have been
resolved in a different manner. See Slack v. McDaniel,
529 U.S. 473, 483-84 (2000).
Claims of ineffective assistance of counsel require
showing that counsel’s performance was deficient and
that the defense was prejudiced. See Strickland v.
Washington, 466 U.S. 668, 687 (1984). The district
court found that, because the testimony Persaud
argues his counsel should have objected to was
admissible, neither prong of this test was met. See
United States v. Dado, 759 F.3d 550, 566 (6th Cir.
2014). Persaud admits that the background, education,
training, experience, scholarship, licenses,
certifications, specialties, professional society
memberships, academic proficiency, publications,
privileges, honors, and awards of each government
witness were made known to the jury. Persaud does not
identify any basis on which to challenge the witnesses’
qualifications or testimony, and the defense did
attempt to discredit their testimony through crossexamination and by calling its own experts. Further,
the claim that counsel failed to challenge the amount
of loss at sentencing is contradicted by the record.

App. 3
Although the district court rejected counsel’s
arguments on this point, counsel made the objections.
Therefore, there has been no showing that
reasonable jurists could debate whether this motion
should have been resolved in a different manner.
Accordingly, the motion for a certificate of appealability
is DENIED.
ENTERED BY ORDER OF THE COURT
/s/Deborah S. Hunt
Deborah S. Hunt, Clerk

App. 4

APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
CASE NO. 1:14 CR 276
1:18 CV 1313
JUDGE DONALD C. NUGENT
[Filed November 27, 2018]
________________________________
HAROLD PERSAUD,
)
)
Defendant- Petitioner,
)
)
v.
)
)
UNITED STATES OF AMERICA, )
)
Plaintiff-Respondent.
)
________________________________ )
JUDGMENT ORDER
This matter comes before the Court upon Harold
Persaud’s Motion to Vacate under 28 U.S.C. § 2255.
(ECF #217). For the reasons set forth in this Court’s
Memorandum Opinion and Order Petitioner’s Motion
to Vacate Pursuant to 28 U.S.C. § 2255 (ECF #217) is
DENIED. The court hereby orders that this case be
dismissed with prejudice. Furthermore, the Court
certifies, pursuant to 28 U.S.C. § 1915(a)(3), that an

App. 5
appeal from this decision could not be taken in good
faith, and that there is no basis on which to issue a
certificate of appealability. 28 U.S.C. § 2253;
Fed.R.App.P. 22(b).
IT IS SO ORDERED.
s/Donald C. Nugent
DONALD C. NUGENT
United States District Judge

DATED: November 27, 2018

App. 6

APPENDIX C
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
CASE NO. 1:14 CR 276
JUDGE DONALD C. NUGENT
[Filed November 19, 2018]
________________________________
HAROLD PERSAUD,
)
)
Defendant- Petitioner,
)
)
v.
)
)
UNITED STATES OF AMERICA, )
)
Plaintiff-Respondent.
)
________________________________ )
MEMORANDUM OPINION AND ORDER
This matter comes before the Court upon Harold
Persaud’s Motion to Vacate under 28 U.S.C. § 2255.
(ECF #217). The petition raises two grounds for relief,
both involving allegations of ineffective assistance of
counsel at trial and on appeal. The first ground alleges
that counsel was ineffective for allowing “untested,
unqualified ‘expert’ testimony and impermissible
opinion testimony” to be admitted at trial, and for
failing to challenge the admission of such testimony on

App. 7
appeal. The second ground claims ineffective assistance
of counsel for failing to object to “amount of loss”
calculations and failing to properly address this issue
on appeal. The government filed a Response in
opposition, and Dr. Persaud filed a Reply and a
Supplement to his Reply. (ECF #223, 224, 225). This
matter is now fully briefed and ready for disposition.
FACTUAL AND PROCEDURAL HISTORY
Following a nearly month long jury trial, Dr.
Persaud was convicted of fifteen counts of Health Care
Fraud, Making False Statements Relating to Health
Care Matters, and Monetary Transactions in Property
Derived from Criminal Activity. The charges were
based in large part on claims that Dr. Persaud
performed unnecessary medical procedures and tests,
falsified medical records and test results, including
systematically over reporting the degree of arterial
blockages in his patients in order to justify additional
procedures, and “upcoding” certain services performed
when billing insurers and Medicare, all for monetary
gain. The jury also found that money seized from Dr.
Persaud’s accounts was forfeitable as proceeds of this
health care scheme; money in his wife’s account was
related to his money-laundering conviction; and that
his scheme generated profits in the amount of
$2,100,000. During trial, the Government presented
testimony from retained experts, and from physician
witnesses, among others. The defense relied on one
expert cardiologist, two referring physicians, and a
coding expert. Dr. Persaud was sentenced to twenty
years of imprisonment and restitution in the amount of
$5,486,857.03.

App. 8
Following his conviction, Dr. Persaud filed three
separate appeals challenging the conviction and
sentence, the forfeiture order, and the restitution
amounts. The Court of Appeals affirmed Dr. Persaud’s
convictions on all counts, as well as the forfeiture order
and the restitution amount.
LEGAL STANDARD
In order to obtain collateral relief “a prisoner must
clear a significantly higher hurdle that would exist on
direct appeal.” United States v. Frady, 456 U.S. 152,
166, (1982). There are only four grounds upon which a
request for relief under 28 U.S.C. § 2255 may be
granted: “(1) that the sentence was imposed in violation
of the Constitution or the laws of the United States;
(2) that the court was without jurisdiction to impose
such a sentence; (3) that the sentence was in excess of
the maximum authorized by law; or (4) that the
sentence is otherwise subject to collateral attack.” Hill
v. United States, 368 U.S. 424, 426-427 (1962). Dr.
Persaud claims that his conviction and resulting
sentence were imposed in violation of the Constitution
of the laws of the United States, or are otherwise
subject to collateral attack. In order to succeed, he
must “sustain[] [his] contentions by a preponderance of
the evidence.” The burden of showing that he is in
custody “in violation of the Constitution of the United
States is on the prisoner,” See, eg., Jones v. Russell, 396
F.2d 797 (6th Cir. 1968). Pough v. United States, 442
F.3d 959, 964 (6th Cir. 2006). Section 2255 relief is not
available for alleged errors that are not of a
constitutional or jurisdictional magnitude or that could
have been reached by a direct appeal. Stone v. Powell,

App. 9
428 U.S. 465, 477 (1976). “Once the defendant’s chance
to appeal has been waived or exhausted. . . we are
entitled to presume that he stands fully and fairly
convicted. “ United States v. Frady, 456 U.S. 152, 164
(1982).
ANALYSIS
I. Ineffective Assistance of Counsel
Both grounds in Dr. Persaud’s petition seek redress
for the alleged ineffectiveness of his trial and appellate
counsel. A defendant seeking to establish ineffective
assistance of counsel must satisfy the standards set
forth in Strickland v. Washington, 466 U.S. 668 (1984).
In Strickland, the United States Supreme Court held
that a defendant must first show that counsel’s
performance was deficient. Id at 687. This means that
counsel’s representation “fell below an objective
standard of reasonableness.” Id. at 687-88. This inquiry
must be made in proper context, considering the
prevailing circumstances and counsel’ s perspective at
trial, and without relying on the 20-20 vision created
by hindsight. See, Id. at 688-89. In addition, judicial
scrutiny of counsel’s performance must be “highly
deferential.” Id. at 689. The Court should presume that
counsel’s conduct falls within the wide range of
reasonable professional assistance.” Id. “Counsel may
exercise his professional judgment with respect to the
viability of certain defenses and evidentiary matters
without running afoul of the Sixth Amendment.” Lewis
v. Alexander, 11 F.3d 1349, 1363-54 (6 th Cir. 1993).
In addition to proving deficiency under this highly
deferential standard, a defendant must show that the

App. 10
deficient error by counsel was prejudicial to his
defense. Id. at 692. It is not sufficient for the defendant
to show “that the errors had some conceivable effect on
the outcome of the proceeding” as nearly every
conceivable “act or omission of counsel would meet this
test.” Id. at 693. Instead, the “defendant must show
that there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the
proceeding would have been different.” Id. at 694. “A
reasonable probability is a probability sufficient to
undermine confidence in the outcome.” Id.
A. Ground One: Failing to challenge expert and lay
witness opinion testimony
Dr. Persaud claims that his trial and appellate
counsel were both ineffective for failing to lodge a
Daubert challenge to the Government’s expert
witnesses at trial, and for failing to raise this issue on
appeal. He also claims counsel were ineffective for
failing to challenge the admission of opinion testimony
from the physician witnesses who were not identified
as expert witnesses prior to trial. He claims that
counsel was ineffective for failing to object to the
introduction of expert testimony without the proper
qualification of the expert witnesses, and for failing to
object to the admission of opinion testimony by
physician witnesses who testified for the Government
but who were not identified in discovery as experts.
1. Identified Experts’ Opinion Testimony
There is no question, based on the evidence
presented at trial that the witnesses who had been
identified as experts were sufficiently qualified to opine

App. 11
on the matters addressed by each at trial. “If evidence
admitted without objection was admissible, then the
complained of action fails both prongs of the Strickland
test.” United States v. Dado, 759 F.3d 550, 566 (6th Cir.
2014). Counsel is not required to make a Daubert
challenge to a expert testimony that clearly meets
Daubert’s standards for admissibility. Further, there is
no need to conduct a voir dire on a proffered expert’s
qualifications if their qualifications are obvious. See,
United States v. Cobb, 397 F. App’x 128, 139 (6th Cir.
2010). At trial, the Government presented evidence of
each expert’s qualifications, and with or without
objection, the Court would have permitted the
testimony of each expert based on the information
provided. Dr. Persaud has offered no evidence or
suggestion of any identifiable deficiency that would
have prevented any of these experts from being
qualified to offer testimony in this case.
Further, the qualifications of the expert witnesses
were known to the defense prior to trial, so defense
counsel was likely aware that any challenge to the
admissibility of the expert’s testimony would have been
fruitless. Judicial scrutiny of counsel’s performance is
required to be highly deferential, and the exercise of
sound strategy and judgment should be presumed.
There was no need for Dr. Persaud’s counsel to waste
resources and time, and risk being seen as unduly
argumentative or incompetent by the jury, by objecting
to the admission of clearly admissible testimony. It is
well established that a defendant’s right to counsel
does not give him a right to force his counsel to present
every possible non-frivolous argument that could be
made on his behalf. See, Jones v. Barnes, 463 U.S. 745,

App. 12
751 (1983). In addition, although Dr. Persaud’s trial
counsel did not baselessly attempt to attack the
admissibility of the testimony, he did vigorously
challenge the substance and credibility of the
testimony at trial on cross-examination, and through
the testimony of experts retained by the defense. Trial
counsel’s failure to challenge or object to the admission
of the Government’s retained experts was not
unreasonable and did not prejudice Dr. Persaud’s case
in any way. Consequently, Dr. Persaud’s appellate
counsel was also not ineffective for raising this issue on
appeal as it was clear that trial counsel did not err in
allowing the testimony to be admitted unchallenged.
Dr. Persaud has not presented any information that
would suggest that his counsel’s failure to challenge
the admissibility of the Government experts’ testimony
was error, that it rose to the level of a constitutional
violation, or that he suffered any prejudice whatsoever
from this alleged error.
2. Physicians’ Opinion Testimony
Dr. Persaud argues that physician witnesses called
by the Government provided opinion testimony that
was not allowed under Fed. R. Evid. 701, and was not
properly qualified under Fed. R. Evid. 702. As part of
his first ground for he relief, he claims that his trial
and appellate counsel were ineffective for failing to
object to the presentation of this evidence, and failing
to object that these witnesses were not disclosed as
experts prior to trial. The government argues that
these physicians were not retained experts, provided
testimony based upon on their own first hand
observations, and to the extent that they may have

App. 13
provided opinions subject to Rule 702, that they met all
of the qualifications necessary to do so. A great deal of
the testimony provided by the physicians was within
the scope of Rule 701. They testified to what they saw
and heard when reviewing patient files and test results
and images, talking with patients, and in their
personal interactions with Dr. Persaud. A lay witness
may testify to the “appearance of persons or things,
identity, the manner of conduct, competency of a
person, degrees of light or darkness, sound, size,
weight, distance, and an endless number of items that
cannot be described factually in words apart from
inferences.” Harris v. J.B. Robinson Jewelers, 627 F.3d
235, 240 (6th Cir. 2010). To the extent that they may
have also testified about conclusions or other opinions
relating to the interpretation of any such information,
there is no question that these physicians are qualified
to be experts with special knowledge, training, and
education in the medical field. Further, the fact that
multiple physician witnesses, and retained expert
witnesses testified similarly provides some evidence
that these witnesses were applying reliable principles
and methods to the facts of this case.
Dr. Persaud does not come out and allege that the
physicians would not have been qualified as expert
witnesses had they been overtly presented as such.
Rather, he alleges that his counsel was deficient for
failing to challenge the admission of such evidence. For
all of the reasons set forth above in the discussion
about the retained experts, Dr. Persaud’s argument on
this issue fails to convince. The physicians were clearly
qualified to be experts based on their education and
experience. As noted above, a defendant’s right to

App. 14
counsel does not give him a right to force his counsel to
present every possible non-frivolous argument that
could be made on his behalf, and it certainly does not
require an attorney to present motions that have no
chance of success. See, Jones v. Barnes, 463 U.S. 745,
751 (1983). Dr. Persaud cannot establish any prejudice
stemming from his counsel’s failure to raise an
objection that would have been overruled.
Even if Dr. Persaud could show that his trial
counsel’s failure to challenge the admission of any
opinion testimony offered by physician witnesses
amounted to error, he has not established that the
error rose to the level of a constitutional violation, or
that he suffered any prejudice from that alleged error.
Dr. Persaud identifies various rules of discovery and
evidence that he claims were violated by the
Government, but does not allege that these violations
impacted Dr. Persaud’s ability to present a defense, nor
does he identify any changes that would have been
made in his approach to trial if those rules had been
followed. There is no allegation that Dr. Persaud or his
counsel were unaware of the testimony expected to be
offered by the physician witnesses, including what
opinions those witnesses would espouse, what those
opinions were based on, and what qualifications they
had to render such opinions. Therefore, even if the
Government failed to identify the physicians’ testimony
under Fed. R. Crim. P. 16(a)(1)(G), there is absolutely
no basis upon which this Court could find that Dr.
Persaud was prejudiced by this alleged failure. As set
forth above, there is no evidence of inefficiency of
appellate counsel and no evidence that Dr. Persaud
was prejudiced by any alleged errors made by his

App. 15
counsel. Ground One provides no basis for the
requested relief.
B. Ground Two: Amount of Loss Calculation
Dr. Persaud also argues that his counsel was
ineffective for failing to object to the amount of loss
calculation used to calculate his sentence. This claim is
belied by the record. Trial counsel did object to the
amount of loss calculation multiple times throughout
the sentencing process, including in the Sentencing
Memorandum (ECF #115, PageID 1111), in the
objections to the Presentence Investigation Report
(ECF # 106, PageID 926-928), and at the sentencing
hearing. (ECF #133, PageID 1604-1611). Although, the
Court ruled against Dr. Persaud on these objections
and arguments, and his sentence was affirmed on
appeal, there is no basis for a finding that his counsel
was ineffective, since his counsel addressed these
issues at every available opportunity prior to
sentencing.
III. Certificate of Appealability
Pursuant to 28 U.S.C. § 2253, the Court must
determine whether to grant a certificate of
appealability as to any of the claims presented a
petition under 28 U.S.C. §2255. That section provides,
in part, as follows:
(c)(1) Unless a circuit justice or judge issues
a certificate of appealability, an appeal may
not be taken to the court of appeals from -(A) the final order in a habeas corpus
proceeding in which the detention

App. 16
complained of arises out of process issued by
a State court; or
(B) the final order in a proceeding under
section 2255.
(2) A certificate of appealability may issue
under paragraph (1) only if the applicant has
made a substantial showing of the denial of
a constitutional right.
(3) The certificate of appealability under
paragraph (1) shall indicate which specific
issue or issues satisfy the showing required
by paragraph (2).
In order to make “substantial showing” of the denial
of a constitutional right, as required under 28 U.S.C.
§ 2255(c)(2), a habeas prisoner must demonstrate “that
reasonable jurists could debate whether . . . the petition
should have been resolved in a different manner or that
the issue presented were ‘adequate to deserve
encouragement to proceed further.”’ Slack v. McDaniel,
529 U.S. 473, 120 S. Ct. 1595, 146 L. Ed. 2d 542 (2000)
(quoting Barefoot v. Estelle, 463 U.S. 880, 893 n.4, 103
S. Ct. 3383, 77 L. Ed. 2d 1090 (1983).)
Although the statute specifies that a certificate of
appealability must be issued by a circuit justice or
judge, the Sixth Circuit is one of three circuits that has
held that this language includes both circuit and
district judges. See, Lyons v. Ohio Adult Parole
Authority , 105 F.3d 1063 (6th Cir. 1997). The Federal
Rules of Appellate Procedure have explicitly included
district judges under this authority as well. Fed. App.
R. P. 22(b)(1). This Court, after reviewing the

App. 17
standards and conditions required for the issuance of
a certificate of appealability, and having thoroughly
reviewed the arguments, both procedural and factual
in support of Mr. Viola’s motion to vacate, determines
that there is no substantial showing of the denial of a
constitutional right, and there is no reasonable basis
upon which to debate the Court’s procedural rulings.
Therefore, the Court denies the certificate of
appealability.
CONCLUSION
For the reasons set forth above, Dr. Persaud’s
Motion to Vacate under 28 U.S.C. § 2255, (ECF #217),
is DENIED and no certificate of appealability will be
issued. IT IS SO ORDERED.
/s/Donald C. Nugent
DONALD C. NUGENT
United States District Judge
DATED: November 19, 2018

App. 18

APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 19-3041
[Filed May 21, 2019]
________________________________
HAROLD PERSAUD,
)
)
Petitioner-Appellant,
)
)
v.
)
)
UNITED STATES OF AMERICA, )
)
Respondent-Appellee.
)
________________________________ )
ORDER
Before: ROGERS, SUTTON, and READLER, Circuit
Judges.
Harold Persaud, a federal prisoner, petitions the
court through counsel to rehear en banc its order
denying him a certificate of appealability. The petition
has been referred to this panel, on which the original
deciding judge does not sit, for an initial determination
on the merits of the petition for rehearing. Upon
careful consideration, the panel concludes that the
original deciding judge did not misapprehend or
overlook any point of law or fact in issuing the order

App. 19
and, accordingly, declines to rehear the matter. Fed. R.
App. P. 40(a).
The Clerk shall now refer the matter to all the
active members of the court for further proceedings on
the suggestion for en banc rehearing.
ENTERED BY ORDER OF THE COURT
_____________________________________
Deborah S. Hunt, Clerk

App. 20

APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 19-3041
[Filed June 6, 2019]
________________________________
HAROLD PERSAUD,
)
)
Petitioner-Appellant,
)
)
v.
)
)
UNITED STATES OF AMERICA, )
)
Respondent-Appellee.
)
________________________________ )
ORDER
Before: ROGERS, SUTTON, and READLER, Circuit
Judges.
Harold Persaud, a federal prisoner, petitions the
court to rehear en banc its order denying him a
certificate of appealability. The petition was initially
referred to this panel, on which the original deciding
judge does not sit. After review of the petition, this
panel issued an order announcing its conclusion that
the original application was properly denied. The
petition was then circulated to all active members of
the court, none of whom requested a vote on the

App. 21
suggestion for an en banc rehearing. Pursuant to
established court procedures, the panel now denies the
petition for rehearing en banc.
ENTERED BY ORDER OF THE COURT
_______________________________
Deborah S. Hunt, Clerk

